                                                            ADVISORY




    RECOVERY OVERSIGHT ADVISORY

    Historic Preservation Training Center ARRA Compliance




Report No.: ROO-ROA-NPS-6003-2010                             July 2010
Davis-Bacon Act Violation

      On August 31, 2009, HPTC and the Chesapeake & Ohio Canal (C&O Canal) National
Historical Park entered into an agreement for masonry preservation and rebuilding of C&O
Canal Lock 22. The work required contracting for a 12-ton crane and an operator from a private
company for $23,425. The HPTC contracting officer originally determined that the Davis-Bacon
Act did not apply to the contract and therefore did not insert the applicable clause. We also found
the contractor did not pay employees Davis-Bacon wages for the area.

      Not including the Davis-Bacon Act clause in the contract violates Federal Acquisition
Regulation (FAR) 22.407(a), which requires that the Davis-Bacon Act clause, FAR 52.222-6, be
inserted in “solicitations and contracts in excess of $2,000 for construction within the United
States.” The HPTC contracting officer was unable to support an exemption to the Davis-Bacon
Act. Consequently, a modification to the contract will be issued to incorporate the Davis-Bacon
Act clause and to add the necessary funding to meet the requirement. The contractor will submit
certified payrolls and compensate affected employees with the difference between the initial rate
paid and the new rate.

    The contracting officer indicated that no other contracts need to be evaluated for Davis-
Bacon Act compliance.

cc: 	 Deputy Secretary, Department of the Interior 

      Director, National Park Service

      Assistant Secretary – Policy, Management, and Budget 

      Acting Director, Office of Financial Management 

      Director, Office of Acquisition and Property Management 

      Superintendent, Historic Preservation Training Center 

      Department GAO/ OIG Audit Liaison 

      Audit Liaison, Office of the Secretary 

      Audit Liaison, National Park Service 

      Bureau Recovery Coordinator, National Park Service 

      Bureau Procurement Chief, National Park Service 





                                                                                                  2
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in 

            government concern everyone: Office

           of Inspector General staff, Departmental

            employees, and the general public. We 

               actively solicit allegations of any

           inefficient and wasteful practices, fraud, 

                and mismanagement related to 

            Departmental or Insular Area programs 

                and operations. You can report

               allegations to us in several ways.




By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                     800-424-5081
                    Washington Metro Area                 703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
